        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Special Report
Selected Department of Energy
Program Efforts to Implement the
American Recovery and
Reinvestment Act




OAS-RA-10-03                     December 2009
                                 Department of Energy
                                    Washington, DC 20585

                                        December 7, 2009


MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                  INFORMATION: Special Report on "Selected Department of
                          Energy Program Efforts to Implement the American Recovery
                          And Reinvestment Act"

BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act) was enacted on
February 17, 2009, to jumpstart the economy by creating or saving millions of jobs,
spurring technological advances in health and science, and investing in the Nation's
energy future. The Department of Energy received over $32.7 billion in Recovery Act
funding for various science, energy, and environmental programs and initiatives. As of
November 2009, the Department had obligated $18.3 billion of the Recovery Act
funding, but only $1.4 billion had been spent. The Department's Offices of Energy
Efficiency and Renewable Energy, Fossil Energy, Environmental Management, Science,
and Electricity Delivery and Energy Reliability received the majority of funding allocated
to the Department, about $32.3 billion.

Obligating these funds by the end of Fiscal Year 2010, as required by the Recovery Act,
and overseeing their effective use in succeeding years, represents a massive workload
increase for the Department's programs. The effort to date has strained existing
resources. As has been widely acknowledged, any effort to disburse massive additional
funding and to expeditiously initiate and complete projects increases the risk of fraud,
waste and abuse. It is, therefore, important for the Department's program offices to
assess and mitigate these risks to the maximum extent practicable. In this light, we
initiated this review as an initial step in the Office of Inspector General's charge to
determine whether the Department's major program offices had developed an effective
approach for identifying and mitigating risks related to achieving the goals and objectives
of the Recovery Act.

RESULTS OF REVIEW

The Department's program offices included in our review identified risks and planned
mitigation strategies that, if successfully implemented and executed, should help achieve
the goals and objectives of the Recovery Act. While each office identified risks unique to
its respective areas of responsibility, there were a number of risks shared in common.
These included the mechanical and substantive requirements related to the award and
                                                 2


distribution of funds; program and project performance monitoring; and, program and
project execution activities. In particular, the offices self-identified common risks such
as:

   •   The inability to award and distribute funds in a timely manner to achieve the goals of the
       Recovery Act;

   •   The sufficiency of monitoring procedures and resources to, among other things, prevent
       and detect fraud, waste and abuse throughout the performance period of financial
       assistance awards and contracts; and,

   •   The inherent cost, schedule and performance risks associated with first-of-a-kind,
       innovative research and demonstration projects.

Our review confirmed that the Department had begun to implement a number of
strategies designed to mitigate these and other program-specific risks. Our testing,
however, identified challenges to the effective implementation of these mitigation
strategies that need to be addressed if the Department is to meet the goals and objectives
established by the Recovery Act. At the time of our review:

   •   Program staffing resources, critical to the success of all other mitigation strategies,
       remained inadequate both in numbers and qualifications (certifications and training) for
       positions in procurement and acquisition, project management, and monitoring and
       oversight functions;

   •   Performance measures for achieving Recovery Act goals such as distributing funds in an
       expeditious manner had not always been established and included in performance plans,
       and, in financial assistance and contract documents; and,

   •   Programs had not consistently demonstrated that previously reported deficiencies,
       identified through audits, inspections, investigations and other oversight activities, had
       been considered in designing mitigation strategies for the Recovery Act related risks. As
       we noted in our Special Report on the American Recovery and Reinvestment Act at the
       Department of Energy (OAS-RA-09-01, March 2009) these sorts of deficiencies, which
       were described in the March 2009 report, had adversely impacted the success of earlier
       Departmental projects. We concluded that consideration of these previously encountered
       internal control weaknesses was essential if the Department was to avoid the same or
       similar problems in executing the Recovery Act programs/projects.

During the course of our audit we identified other internal control weakness indicators.
When brought to their attention by the Office of Inspector General audit staff, program
officials acted promptly to address these problems by modifying or improving their risk
mitigation strategies. For instance, we found that the Office of Energy Efficiency and
Renewable Energy, responsible for $16.8 billion in Recovery Act program activities, took
steps to strengthen its merit review process to avoid potential conflict of interest
concerns. Similarly, the Office of Electricity Delivery and Energy Reliability told us that
                                                3


it had revised and improved its plans to address problems with the insufficient number of
merit reviewers needed to evaluate funding proposals. Furthermore, Fossil Energy
officials stated that, as a result of our audit, they included additional controls in the
funding opportunity announcements and improved the quality of Recovery Act plans and
performance metrics. Because officials reacted promptly to the concerns we identified,
we did not separately report on issues such as these.

The Department has made significant progress in identifying programmatic risks and
preparing mitigation plans which should help increase the likelihood that the Recovery
Act goals and objectives will be met. In this regard, the Department established the
Office of Risk Management within the Office of the Chief Financial Officer and issued
Department-wide guidance for risk management efforts. That Office has worked with
program officials to refine program plans and risk mitigation strategies. Additionally, the
Department improved information technology systems for tracking financial information
and project performance.

While significant advances were noted, the Department's role in strengthening the U.S.
economy through its management of billions of dollars in Recovery Act expenditures
makes its efforts to manage risk a high priority. To assist in this effort, our report
includes a number of recommended actions that the Department should take to address
the challenges that remain.

MANAGEMENT REACTION

Management generally concurred with the report's recommendations and agreed to take
corrective action. In certain instances, management indicated that actions necessary to
satisfy the intent of our recommendations have been completed. Management comments
are included in Appendix 3.

Attachment

cc:   Deputy Secretary
      Under Secretary of Energy
      Under Secretary for Science
      Assistant Secretary for Energy Efficiency and Renewable Energy
      Assistant Secretary for Environmental Management
      Assistant Secretary for Fossil Energy
      Acting Assistant Secretary for Electricity Delivery and Energy Reliability
      Director, Office of Science
      Chief of Staff
      Chief Financial Officer
      Chief Information Officer
SPECIAL REPORT ON SELECTED DEPARTMENT OF ENERGY
PROGRAM EFFORTS TO IMPLEMENT THE AMERICAN
RECOVERY AND REINVESTMENT ACT

TABLE OF
CONTENTS

Recovery Act Implementation Efforts

Background and Results ...................................................................................................1

Management Reaction ....................................................................................................17

Appendices

1. Objective, Scope, and Methodology.........................................................................18

2. Related Reports.........................................................................................................20

3. Management Comments ...........................................................................................22
RECOVERY ACT IMPLEMENTATION EFFORTS

Background and        As part of the American Recovery and Reinvestment Act
Results               of 2009 (Recovery Act), the Department of Energy
                      (Department) was appropriated more than $32.7 billion to
                      support a number of major initiatives and an additional
                      $4 billion to support its Loan Guarantee Program. Per the
                      Recovery Act, this funding must be obligated by
                      September 30, 2010. In addition, appropriations law
                      requires the expenditure of the funds no later than
                      September 30, 2015. The vast majority of these funds
                      ($32.3 billion) were provided to five of the Department's
                      major programs. A significant portion of the remaining
                      funding will be provided to existing facility contractors to
                      accelerate ongoing or planned projects. Remaining funds
                      will be distributed through financial assistance agreements
                      and grants to various recipients. In particular, the Offices
                      of:

                        •   Energy Efficiency and Renewable Energy (EERE)
                            received $16.8 billion to support various programs
                            such as improving the energy efficiency of low-
                            income housing through the Weatherization
                            Assistance Program, conducting energy research and
                            development projects related to energy efficiency and
                            conservation strategies and programs, and studying
                            the use of alternative fuels for vehicles;

                        •   Environmental Management (EM) received $6 billion
                            that will be used to clean up contamination resulting
                            from Cold War manufacturing activities at 17 sites
                            across the Department complex. The Department
                            anticipates that most Recovery Act-funded work at
                            these sites will be completed by September 30, 2011;

                        •   Electricity Delivery and Energy Reliability (OE) was
                            provided $4.5 billion to support modernization of the
                            Nation's electrical grid to a Smart Grid that uses
                            technologies to enable communication and overall
                            reliability;

                        •   Fossil Energy received $3.4 billion to stimulate
                            private sector investment in and accelerate the
                            deployment of Carbon Capture and Storage
                            technology for coal-based energy systems and
                            industrial processes; and,

                        •   Science was provided $1.6 billion to further enhance
                            ongoing research efforts, to include the addition of 16
________________________________________________________________
Page 1                                            Details of Finding
                              Energy Frontier Research Centers. The intent of
                              these Centers is to accelerate basic research to address
                              the Nation's energy challenges.

                         In March 2009, the Office of Inspector General issued a
                         Special Report on The American Recovery and
                         Reinvestment Act at the Department of Energy (OAS-RA-
                         09-01, March 2009) that highlighted specific risk areas
                         discovered during our prior reviews. The report also
                         suggested actions that the Department should consider
                         during Recovery Act planning and program execution to
                         help reduce the likelihood that the same or similar
                         problems would recur. Since the issuance of that report, we
                         have initiated a series of reviews of the programs just
                         identified to evaluate the effectiveness of the Department's
                         efforts to carry out its Recovery Act responsibilities.
                         During the course of our evaluations, we met with program
                         officials and reviewed documentation to determine how
                         each of the programs intended to mitigate known risk areas.

                         We also identified a number of continuing challenges that
                         the programs must address if they are to effectively meet
                         the goals of the Recovery Act. We recognize that each of
                         the programs face risks and challenges specific to their
                         areas of responsibility. However, our body of work
                         identified a number of issues related to the award and
                         distribution of funds, program and project performance
                         monitoring, and program and project execution activities
                         that, in our judgment, appear to be common to many of the
                         Department's major Recovery Act programs. To that end,
                         we have recommended a number of actions that the
                         Department should take to help overcome these challenges.

Award and Distribution   The significant increase in funding combined with
of Recovery Act Funds    statutory time constraints for obligation and expenditure
                         have stressed existing mechanisms to award and distribute
                         funds. The Department initiated action to identify the risks
                         associated with, and the steps necessary to, successfully
                         achieve the objectives of the Recovery Act. In general, the
                         Department's efforts in this area were extensive. However,
                         our review identified certain remaining challenges related
                         to awarding and distributing Recovery Act funds that
                         should be addressed.




________________________________________________________________
Page 2                                            Details of Finding
                            Recovery Act Funds Award and Distribution Risks

                      The influx of significant new funding presents a number of
                      challenges and risks to each of the programs reviewed
                      related to awarding projects and distributing funds to the
                      various recipients. In particular, as a result of the Recovery
                      Act and related Office of Management and Budget (OMB)
                      mandates, the programs reviewed reported the following
                      risks:

                        •    Recovery Act funds may not be awarded and
                             distributed to recipients in a timely manner. For
                             instance, in the short time frames mandated under the
                             Recovery Act, EERE must select and award projects
                             that have the greatest chance of meeting
                             programmatic and Recovery Act objectives, including
                             multiple projects with thousands of recipients under
                             the Energy Efficiency and Conservation Block Grants
                             Program. EERE officials noted the awards process
                             for the Block Grant Program was a new initiative that
                             may be challenging to implement because there is no
                             existing infrastructure. Both Fossil Energy and OE
                             officials also identified risks or concerns related to
                             ensuring that financial assistance awards are
                             completely obligated within the coming fiscal year.

                        •    Funds may not be expended by the recipients in a
                             timely manner or satisfy the goals and objectives of
                             the Recovery Act. As an example, EERE officials
                             indicated that previous non-Recovery Act awards had
                             not been fully utilized by Weatherization Assistance
                             recipients and, in fact, some organizations had
                             significant unexpended balances from prior years. In
                             addition to the risk of timely expenditures, concerns
                             about controls over the propriety of expenditures
                             exist. An official with Science's Integrated Support
                             Center at Chicago (Chicago), Office of Acquisitions
                             and Assistance (Office of Acquisitions), expressed
                             concern about the level of documentation required for
                             payments made to financial assistance recipients,
                             since their use of the Automated Standard Application
                             for Payments System (ASAP) does not require
                             recipients to provide detailed support.

                        •    Available staffing levels may not be adequate to
                             award contracts, develop financial assistance tools,
                             and disburse funds to award recipients in a timely
________________________________________________________________
Page 3                                            Details of Finding
                            manner. Certain programs reviewed noted that they
                            would need additional staff to handle the increased
                            number of awards and disbursements. Science,
                            EERE, and OE officials disclosed that staffing was a
                            significant issue that needed to be addressed. For
                            example, program officials determined that staffing
                            levels for the Chicago Office of Acquisitions were
                            inadequate and noted that maintaining sufficient
                            trained acquisition personnel is a challenge
                            Department-wide. Similarly, EERE and OE officials
                            disclosed that they lacked sufficient staff in various
                            award and funds obligation functions.

                        •   Requirements of the Recovery Act may not be
                            incorporated into recipient contracts and other
                            financial assistance tools. Science officials
                            commented that one of the program's major risks in
                            implementing the Recovery Act is ensuring that new
                            requirements are included in management and
                            operating contracts, financial assistance agreements,
                            and related subcontracts.

                                       Risk Mitigation Strategies

                      As part of a comprehensive strategy to address Recovery
                      Act requirements and related risks, each of the programs
                      reviewed had taken a number of steps to help alleviate
                      known risks, as necessary. For example:

                        •   Additional guidance and contracting terms were
                            developed and implemented related to awarding funds
                            for Recovery Act activities. To assist each of the
                            Department's programs, the Office of Procurement
                            and Assistance Management (Procurement)
                            developed guidance on funding acquisition and
                            financial assistance activities with Recovery Act
                            appropriations to help maximize the effective use and
                            management of those funds. Procurement also
                            developed special contractual terms and conditions
                            for programs to use to ensure project compliance with
                            new Recovery Act requirements. Science modified
                            the terms and conditions of its financial assistance
                            agreements and management and operating contracts
                            to include Recovery Act requirements and stipulated
                            that these requirements be included in proposed flow-
                            down clauses for subcontracts. To help meet
                            Recovery Act requirements for timely execution of

________________________________________________________________
Page 4                                            Details of Finding
                            projects, EERE specified in funding opportunity
                            announcements that grantees would have only limited
                            timeframes to complete expenditure of Recovery Act
                            funds.

                        •   Several programs developed acquisition and/or
                            funding strategies to decrease the risk of awarding
                            and distributing funds to recipients that could not
                            successfully complete projects. In particular, Fossil
                            Energy divided the application process for one of its
                            major projects into two steps. The first step was
                            development of a seven-month feasibility and project
                            definition phase that will allow the Department to
                            evaluate and select final awardees. The second part
                            of this acquisition process will be the selection of
                            awardees and progression into the design,
                            construction and operation phase. Fossil Energy
                            officials also noted that they hope to utilize lessons
                            learned to streamline the negotiation process, with a
                            goal of reducing the negotiation time for Clean Coal
                            Power Initiative cooperative agreement awards from
                            14 to 7 months. In addition, EERE plans to restrict
                            the release of funding pending a recipient's
                            demonstration of satisfactory progress toward
                            achieving Recovery Act goals and objectives.

                        •   A number of the programs reviewed had taken steps
                            to increase or reallocate staffing levels to support the
                            award and distribution of Recovery Act funds. In
                            particular, EERE officials disclosed that they intend
                            to either subcontract Recovery Act work or hire
                            procurement staff in an attempt to award and
                            distribute funding as quickly as possible. In addition,
                            Science used contractor personnel and reassigned
                            staff at its Chicago Office of Acquisitions to assist
                            with the negotiation, execution, administration, and
                            oversight of Recovery Act awards. EERE reported
                            that it had met its goals for awarding and obligating
                            funds in a timely manner by using procurement staff
                            from other programs and rehiring federal annuitants
                            on a temporary basis.

                        •   Certain programs had modified language for
                            awarding Recovery Act projects to help ensure that
                            funds are awarded and distributed to meet Recovery
                            Act goals and objectives. For example, OE plans to

________________________________________________________________
Page 5                                            Details of Finding
                           apply merit criteria to awards that measure the extent
                           to which projects will advance Smart Grid
                           functionality.

                            Remaining Award and Distribution Challenges

                      Although programs had taken, and continue to take, actions
                      to address many potential issues related to awarding and
                      distributing Recovery Act funds, a significant challenge
                      remains that requires resolution to help satisfy Recovery
                      Act goals and objectives. In particular, while we recognize
                      that it takes time to address inadequate staffing levels, we
                      believe that this will continue to be a challenge encountered
                      by most programs in the foreseeable future. For example,
                      Science stated it had analyzed staffing levels and released
                      administrative funds to help address staffing issues, but the
                      Chicago Office of Acquisitions was still in the process of
                      hiring additional contractor personnel needed to perform
                      the anticipated work. Further, Chicago had not taken steps
                      to improve the accountability of financial assistance
                      recipients using ASAP, such as considering placing holds
                      on portions of the funding until high risk recipients
                      demonstrate they are accounting for their funds
                      satisfactorily.

                                        Recommended Actions

                      As part of its ongoing and planned activities related to
                      awarding and distributing Recovery Act funds, the
                      Department should:

                        1. Continue to focus management attention on hiring
                           qualified personnel to meet program needs and
                           consider reallocating staff where appropriate; and,

                        2. Develop controls to improve accountability of
                           financial assistance recipients using ASAP.

                      The actions described above, when completed, should help
                      the Department address the risks associated with awarding
                      and distributing funds to meet Recovery Act goals and
                      objectives.

Program and Project   With the unprecedented number of contracts, grants, and
Performance           cooperative agreements for new projects that the Department
Monitoring            has awarded and will continue to award, performance

________________________________________________________________
Page 6                                            Details of Finding
                      monitoring and oversight will be a key element in
                      determining the ultimate success or failure of the Recovery
                      Act. As has been consistently demonstrated in the past,
                      project management weaknesses across the Department
                      represent risks that, if not mitigated, are likely to increase
                      the potential for fraud, waste and abuse of Recovery Act
                      funds. Planning activities for all five programs included in
                      our review identified risks related to managing and
                      monitoring Recovery Act projects. While we observed that
                      efforts had been made to develop and implement mitigation
                      strategies to address these risks, challenges remain that
                      could impact the effectiveness of Recovery Act program
                      and project performance monitoring.

                             Performance Monitoring and Oversight Risks

                      Subsequent to awarding Recovery Act projects and
                      distributing the appropriate funds, the Department's focus
                      will need to shift to providing effective performance
                      monitoring and oversight throughout the entire
                      performance period to ensure the goals of the Recovery Act
                      are met. However, due to the large number of new projects
                      and the additional requirements placed on the use of
                      Recovery Act funds, program offices will need to address a
                      number of risks and challenges associated with their
                      monitoring and oversight activities. Based on our
                      discussions with program officials and examination of risk
                      assessments, we noted that programs are likely to face
                      certain common or shared risks in this area. For example,
                      significant risks identified included:

                        •    Existing or yet to be developed performance
                             monitoring procedures and controls may not be
                             sufficient to ensure that the requirements of the
                             Recovery Act are met. EERE, in particular, noted
                             that, based on monitoring reports and past
                             experience, certain Weatherization grantees may not
                             have adequate internal controls, reducing the
                             likelihood of preventing or detecting fraud, waste,
                             or abuse.

                        •    As with the funds award and distribution process,
                             staffing may not be adequate to meet the program
                             monitoring and oversight demands created by the
                             Recovery Act. Specifically, all five programs
                             reviewed initially reported that they did not have
                             sufficient resources to provide adequate monitoring
________________________________________________________________
Page 7                                            Details of Finding
                             and oversight of Recovery Act projects. In one
                             instance, EERE determined that staffing was its
                             most significant risk to the successful
                             implementation of Recovery Act activities. EM
                             sites identified a shortage of facility representatives,
                             the primary points of contact with contractors for
                             operational and safety oversight, as a vulnerability.
                             Furthermore, OE specified that the large volume of
                             work generated by the Recovery Act will result in
                             the need for additional staff to review invoices and
                             quarterly reports for compliance with Recovery Act
                             requirements.

                              Program Monitoring Mitigation Strategies

                      Recognizing the importance of effectively monitoring
                      Recovery Act projects, the program offices reviewed had
                      developed and, in some cases, had initiated specific actions
                      to mitigate the risks identified. In particular:

                        •    Each program had made at least some progress in
                             evaluating and/or revising its existing monitoring
                             and oversight procedures for Recovery Act projects.
                             For example, EERE revised its monitoring
                             procedures to address the risks and requirements
                             associated with the implementation of the Recovery
                             Act. In addition, EERE initiated reviews of certain
                             states' readiness to meet Recovery Act
                             requirements. Furthermore, Science was
                             developing monitoring and oversight plans for its
                             activities at Oak Ridge and Chicago. OE also
                             indicated that it had reviewed the National Energy
                             Technology Laboratory's (NETL) – one of its
                             Project Management Centers – existing project
                             management procedures and intended to use them
                             to meet their Recovery Act objectives. In addition,
                             EM had revised its process for managing Recovery
                             Act cleanup projects that fall under the jurisdiction
                             of the Department's Order 413.3A, Program and
                             Project Management for the Acquisition of Capital
                             Assets.

                        •    All programs reviewed had initiated action to
                             address monitoring and oversight staffing shortages,
                             including hiring additional personnel or reassigning
                             staff to higher priority tasks. For example,
                             programs were actively involved in the process of
________________________________________________________________
Page 8                                            Details of Finding
                            recruiting and hiring candidates to fill both
                            temporary and permanent positions. In particular,
                            EERE plans to significantly increase its monitoring
                            staff by hiring additional Federal and contractor
                            workers. Additionally, EERE requested and was
                            granted direct hire authority in an effort to fill
                            critical field staffing needs quickly. EERE senior
                            management reported receiving weekly updates on
                            the progress of meeting hiring goals. In addition,
                            EM and Science both plan to reassign current staff
                            to assist with the increased oversight responsibility.
                            For example, EM has assigned certified Federal
                            project directors to all Recovery Act capital asset
                            projects commensurate with the level of project
                            they are assigned to manage. In some cases, EM
                            has assigned a Level 4 project director until a new
                            project director can complete certification
                            requirements. Science released Recovery Act funds
                            to the Chicago Office of Acquisitions to hire
                            additional contractors to assist in monitoring
                            financial assistance agreements. OE hired
                            additional contractor staff to conduct an initial
                            review of invoices and to make recommendations to
                            invoice approving officials. Furthermore, Fossil
                            Energy's project management documents identified
                            plans to address its projected funding shortfall of
                            $45 million for Recovery Act program direction in
                            out-year budget requests.

                        •   Programs had also developed plans to train staff to
                            perform monitoring and oversight activities for
                            Recovery Act projects. For instance, OE reported
                            that it had coordinated with other Departmental
                            elements to increase the number of contracting
                            officer representative training classes and that the
                            number of certified personnel had increased as a
                            result of this effort. OE also noted that a project
                            management handbook and standard operating
                            procedures to guide program and project managers
                            are under development. Also, EERE indicated that
                            it had held several training classes for grant
                            reviewers, NEPA and procurement staff, and project
                            officers. Further, many of the programs disclosed
                            that they had also taken advantage of the many
                            fraud awareness briefings (84 briefings reaching
                            over 8,000 individuals) provided by the Office of
                            Inspector General. These briefings serve to educate
________________________________________________________________
Page 9                                            Details of Finding
                             individuals on specific vulnerabilities within the
                             program, contracts, and grants they oversee.
                             Additionally, they alert recipients to the Office of
                             Inspector General's oversight role, and expose them
                             to potential adverse ramifications of the misuse of
                             Recovery Act funds.

                            Remaining Performance Monitoring Challenges

                      While current mitigation strategies should help improve the
                      programs' oversight and monitoring of Recovery Act
                      projects, additional challenges will need to be addressed to
                      increase the likelihood that goals and objectives of the
                      Recovery Act will ultimately be achieved. In particular:

                        •    In accordance with OMB guidance, the Department
                             must take steps to implement additional oversight
                             controls to mitigate the unique risks of the Recovery
                             Act. However, we noted that several of the
                             programs had not yet completed this action. For
                             instance, Science had developed plans to review
                             contractor compliance with Recovery Act
                             provisions, but had not finalized the extent of
                             grantee and financial assistance awardee reviews at
                             Chicago to ensure that new priorities such as
                             transparency are achieved.

                        •    While there has been progress related to this issue,
                             the programs reviewed still face daunting
                             challenges in recruiting adequate monitoring and
                             oversight staff. For example, EERE is still in the
                             process of filling positions at the NETL and Golden
                             Field Office. Thus far, using direct hire authority,
                             EERE reported that it had filled roughly half of the
                             288 positions authorized. We also noted that OE
                             had only hired about 36 percent of needed
                             employees identified on its Recovery Act staffing
                             plan. Staffing shortages could also be exacerbated
                             by the loss of the authority to retain temporary hires
                             beyond 2011, even though the projects will likely
                             extend well beyond that date. In addition, Science
                             stated that it had analyzed staffing levels, but was
                             still in the process of securing personnel to perform
                             anticipated monitoring and oversight of Recovery
                             Act projects. Finally, while Fossil Energy had


________________________________________________________________
Page 10                                           Details of Finding
                             identified its staffing needs, officials noted that the
                             program is short of the funding needed to ensure
                             adequate oversight between 2011 and 2015.

                        •    In our opinion, and as emphasized in OMB
                             guidance, performance measures designed to aid in
                             monitoring accomplishments specific to Recovery
                             Act activities, such as distributing Recovery Act
                             funds in an expeditious manner, need to be included
                             as modifications to the Performance Evaluation
                             Measurement Plans in existing management and
                             operating contracts. In this way, contractors'
                             performance on Recovery Act projects may directly
                             affect the fees they can earn. Science officials
                             noted that the existing performance measures
                             contained in the management and operating
                             contracts are broad enough to encompass Recovery
                             Act projects and that performance measures from
                             the individual Recovery Act projects would be
                             considered during the evaluations of the contractors'
                             performance. Science also stated that the focus on
                             project performance and transparency to the public
                             is achieved by weekly contractor reports on
                             obligations and costs and regular reports to
                             Recovery.gov. However, we concluded that
                             reliance on the existing performance measures in
                             the Performance Evaluation Measurement Plans
                             may not provide the focus needed for Recovery Act
                             project performance and transparency to the public.
                             Furthermore, we noted similar difficulties at the
                             Department level in our recent report on The
                             Department of Energy's Efforts to Meet
                             Accountability and Performance Reporting
                             Objectives of the American Recovery and
                             Reinvestment Act (OAS-RA-09-04, September
                             2009). Many of the performance measures
                             reviewed were either not quantifiable or did not
                             always correspond to Recovery Act requirements.

                                        Recommended Actions

                      To prepare for the unprecedented level of oversight needed
                      to effectively monitor the vast number of Recovery Act
                      projects, the Department and its program directors, as
                      appropriate, should take steps to:



________________________________________________________________
Page 11                                           Details of Finding
                        3.   Revise financial assistance guidelines for
                             monitoring awards or create new guidelines that
                             incorporate additional Recovery Act requirements
                             for monitoring and oversight;

                        4.   Perform staffing reviews, as necessary, to determine
                             the level of personnel needed to oversee Recovery
                             Act projects, prioritize and reallocate staff as
                             appropriate, and continue to provide senior
                             management attention to hiring needs;

                        5.   Ensure that new staff hires are adequately trained in
                             monitoring procedures; and,

                        6.   If programs have not already done so, incorporate
                             performance measures related to the goals of the
                             Recovery Act into the Performance Evaluation
                             Measurement Plans included in facility operations
                             contracts and ensure that these measures factor into
                             the performance evaluations of the management and
                             operating contractors.

                      These recommendations, taken together with planned and
                      ongoing actions, should assist the Department in carrying
                      out its performance monitoring and oversight strategy for
                      Recovery Act activities.

Program and           The Recovery Act will provide the Department with over
Project Execution     $36.7 billion of additional funding that must be expended
                      no later than September 30, 2015. While improvements
                      have been made across the Department, projects not
                      achieving their intended objectives within estimated cost,
                      scope, and schedule has been a recurring problem. As
                      noted in our previous reports on management challenges at
                      the Department of Energy, project management weaknesses
                      existed in the management of major projects across the
                      Department. To carry out the programs and projects to the
                      level of accountability and transparency required by the
                      Recovery Act, there are certain barriers and risks that the
                      Department will need to overcome. Although the
                      Department had identified a number of risks and developed
                      various mitigation strategies to address some of these
                      issues, challenges remain that could impact the
                      Department's ability to successfully execute Recovery Act
                      projects.



________________________________________________________________
Page 12                                           Details of Finding
                                        Project Execution Risks

                      The number of new projects being initiated by the
                      Department, all in a relatively short timeframe, has created
                      several significant logistical and technical risks which,
                      unless properly managed, may compromise the success of
                      the projects. Based on our discussions with program
                      officials and examination of draft and/or final risk
                      assessments, we determined that programs are likely to face
                      common or shared risks. For example, significant risks
                      identified included:

                        •    Innovative or first-of-a-kind projects carry inherent
                             schedule, cost, and technology risks. Past
                             experience with projects of this nature has shown
                             the potential for cost growth and schedule slippages
                             that are outside the direct control of the Department.
                             Therefore, there is a risk that projects may not be
                             successfully completed before all Recovery Act
                             funds are expended. For example, large scale
                             demonstration programs such as the Clean Coal
                             Power Initiative typically select projects that require
                             more than five years for completion. In addition,
                             program officials noted that in the case of the Smart
                             Grid, there may not be enough specialized
                             equipment and services available to complete
                             demonstration projects.

                        •    Complex coordination and teaming arrangements
                             could negatively impact schedule and completion of
                             Recovery Act projects. Within the Department, for
                             example, EM officials at Oak Ridge noted in their
                             vulnerability assessment that projects must be
                             coordinated with ongoing mission activities to
                             ensure the success of the projects. Specifically,
                             technically challenging projects must be carefully
                             coordinated with the Oak Ridge National
                             Laboratory's (ORNL) base science and energy
                             operations, since many of the projects are located
                             on ORNL's central campus. EM is also funding
                             cleanup work at two National Nuclear Security
                             Administration (NNSA) sites which pose elevated
                             risks, since NNSA contractors cannot be directly
                             managed by EM officials.

                        •    Coordination with project partners who are outside
                             the Department is also critical to success. Fossil
________________________________________________________________
Page 13                                           Details of Finding
                             Energy, for example, needs timely access to
                             privately-owned project sites and equipment for the
                             success of Geological Sequestration Site
                             Characterization activities. An inability to gain
                             timely access could cause significant project delays,
                             negatively impact performance, and threaten the
                             ability to expend funds by 2015. In addition,
                             Department teaming arrangements have historically
                             experienced failures due to partner withdrawal.
                             Since 2007 for example, three Clean Coal Power
                             Initiative projects have been cancelled because of a
                             team member's withdrawal from the project.
                             Furthermore, as noted in our Audit of Selected
                             Energy Efficiency and Renewable Energy Projects
                             (DOE/IG-0689, May 2005), one geothermal project
                             experienced problems with various partnering
                             arrangements and ultimately failed because of,
                             among other things, a lack of detailed analysis of
                             the partners' resources. Finally, OE disclosed that
                             there may be difficulties in coordinating with
                             various international and state entities specific to
                             interconnection transmission planning.

                            Program Execution Risk Mitigation Strategies

                      Although we recognize that much of the funding to support
                      execution of Recovery Act projects has not been expended,
                      we found that certain programs have taken a number of
                      proactive steps to mitigate their known risks related to
                      various issues. Examples of actions taken or planned by
                      programs include:

                        •    Programs had initiated action to help ensure that
                             inherent schedule, cost, and technology risks
                             associated with innovative or first-of-a-kind
                             projects had been addressed. For instance, Fossil
                             Energy intends to ameliorate the inherent risks by
                             closely monitoring performance and distributing
                             Recovery Act funds to the fastest moving projects.
                             In addition, OE and EERE disclosed that they had
                             obtained or plan to require commitment letters from
                             applicants and vendors affirming their ability to
                             supply the necessary equipment and services.
                             EERE officials also noted that they planned to
                             obtain purchase commitments from end users to
                             ensure the availability of customers for the

________________________________________________________________
Page 14                                           Details of Finding
                             Advanced Batteries Program. EERE also planned
                             to improve its construction management capabilities
                             to enable better management of the program.

                        •    Certain programs had begun coordination efforts to
                             help ensure the success of Recovery Act projects.
                             For instance, the Department had required
                             commitment letters for its Fossil Energy Geological
                             Sequestration Site Characterization projects from
                             landowners for site access and full disclosure of any
                             known land use issues. In addition, EM had
                             prepared interface documents between programs to
                             alleviate some of the coordination issues. Perhaps
                             most significantly, EM had entered into a formal
                             memorandum of agreement with the NNSA. In the
                             agreement, NNSA concurred with a cooperative
                             arrangement in which EM would monitor and
                             participate in the oversight of the Recovery Act
                             work. NNSA and EM further agreed to use their
                             best efforts to resolve implementation issues and to
                             execute the work efficiently. EM was also placing
                             technical representatives at its Recovery Act sites.
                             Furthermore, OE officials noted that they will
                             facilitate obtaining stakeholder agreements for
                             interconnection transmission planning.

                        •    At least one program had taken action to address
                             certain previously identified weaknesses related to
                             project management. In particular, EM sent several
                             review teams to Los Alamos National Laboratory
                             (LANL) to address performance problems and to
                             ensure that the scope of Recovery Act projects
                             could be completed safely and efficiently. EM
                             officials had been so concerned with the issues
                             identified at the Laboratory that they withheld
                             Recovery Act funds for several months until they
                             were satisfied that LANL would be able to execute
                             the work.

                        Remaining Program and Project Execution Challenges

                      Challenges with project execution continue to exist even
                      though the Department had taken a number of positive
                      actions related to this area. These challenges must be
                      addressed to help ensure that the ultimate goals and
                      objectives of the Recovery Act projects are met. In
                      particular:
________________________________________________________________
Page 15                                           Details of Finding
                        •   Coordination efforts may not be sufficient to ensure
                            that all involved parties are working toward
                            achieving the required goals and objectives. For
                            example, Fossil Energy's Industrial Carbon Capture
                            and Storage projects can require the collaboration of
                            up to three parties for the successful capture,
                            transport and storage of carbon dioxide. As
                            previously noted, the longevity of the necessary
                            teaming arrangements has been identified as a risk
                            going forward due to historical issues such as
                            partner withdrawal. Although Fossil Energy has
                            implemented additional controls to enhance reviews
                            of teaming arrangements, significant challenges
                            with retaining team members remain. For example,
                            after announcing the Department's intent to build a
                            commercial-scale carbon capture and storage
                            project with the FutureGen Alliance, two FutureGen
                            Alliance members announced they were
                            withdrawing. As a result, the remaining members
                            will either have to find new partners or increase
                            their own project costs. Given the complexity and
                            substantial costs of these projects, business
                            arrangements between teaming partners should be
                            subject to extensive coordination and rigorous
                            Department review.

                        •   Operational deficiencies previously identified by
                            internal and external entities may not have been
                            adequately considered and/or addressed.
                            Specifically, a number of vulnerability or risk
                            assessments provided to us for review did not
                            affirmatively demonstrate that Science, EERE, and
                            EM had considered deficiencies identified through
                            prior audits. As noted in our report on The
                            American Recovery and Reinvestment Act at the
                            Department of Energy (OAS-RA-09-01, March
                            2009) we believe this to be a critical step in
                            avoiding problems caused by past internal control
                            weaknesses. While documentation supporting this
                            analysis was not included in the original risk
                            assessments we were provided, we noted that recent
                            guidance issued by the Office of the Chief Financial
                            Officer required that programs consider prior
                            weaknesses when planning and carrying out their
                            Recovery Act programs. Although the five
                            programs provided updated risk assessments, the
                            assessments were not consistent in the extent to
________________________________________________________________
Page 16                                           Details of Finding
                            which they demonstrated that previous deficiencies
                            had been considered. Fossil Energy, for example,
                            indicated that it had reviewed 22 prior audit reports
                            for identified deficiencies, while some of EM's
                            assessments did not mention prior deficiencies.

                                       Recommended Actions

                     To meet the requirements mandated by the Recovery Act
                     and to address the risks to project execution identified in
                     our report, the Department should:

                      7.    Ensure that safeguards are sufficient to enhance the
                            likelihood of successful teaming arrangements for
                            cooperative agreements; and,

                      8.    Ensure that all operational and oversight
                            deficiencies previously identified through audits are
                            considered as programs refine their risk assessment
                            and mitigation plans and carry out project execution
                            activities.

                     In summary, the Department has made substantial progress
                     in identifying risks and preparing mitigation plans to help
                     increase the likelihood that Recovery Act goals and
                     objectives will be met. Much work has been done,
                     however, much remains. Recovery Act efforts will require
                     the continued focus and attention of senior officials across
                     the Department. Our recommendations are designed to
                     help ensure that on-going efforts are successful.
                     Implementation of these recommended actions, when
                     completed, should help the Department successfully
                     execute its Recovery Act projects.

MANAGEMENT           Management concurred with each of the report's
REACTION             recommendations and indicated that many of the actions
                     suggested have already been initiated or completed. In
                     particular, management stated that it had, and continues to,
                     act to ensure that adequate staff are available who are
                     properly trained to carry out established Recovery Act
                     oversight and monitoring plans.

AUDITOR              We consider management's comments and planned
COMMENTS             actions to be responsive to our recommendations. We
                     included the full text of management's comments in
                     Appendix 3.

________________________________________________________________
Page 17                                      Management Reaction
Appendix 1

OBJECTIVE             The objective of this audit was to determine whether the
                      Department of Energy's (Department) major program offices
                      had developed an effective approach for identifying and
                      mitigating risks related to achieving the goals and objectives of
                      the American Recovery and Reinvestment Act of 2009
                      (Recovery Act).

SCOPE                 This audit was performed between March and September 2009
                      at Department Headquarters in Washington, D.C., and
                      Germantown, Maryland, and at the Department's site offices
                      including: Oak Ridge Office in Oak Ridge, Tennessee; Golden
                      Field Office in Golden, Colorado; Chicago Office in Argonne,
                      Illinois; Fermi Site Office in Batavia, Illinois; Stanford Site
                      Office in Menlo Park, California; Richland Operations Office
                      and Office of River Protection in Richland, Washington; Idaho
                      Operations Office in Idaho Falls, Idaho; Carlsbad Field Office
                      in Carlsbad, New Mexico; Savannah River Operations Office
                      in Aiken, South Carolina; and, at the National Energy
                      Technology Laboratory in Pittsburgh, Pennsylvania and
                      Morgantown, West Virginia. The audit was also performed at
                      National Nuclear Security Administration site offices including
                      Y-12 Site Office in Oak Ridge, Tennessee, and Los Alamos
                      Site Office in Los Alamos, New Mexico.

METHODOLOGY           To accomplish the audit objective, we:

                         •   Reviewed applicable laws, directives, and guidance
                             pertaining to Recovery Act implementation, including
                             OMB M 09-10, Initial Implementing Guidance for the
                             American Recovery and Reinvestment Act of 2009; and,
                             OMB M 09-15, Updated Implementing Guidance for
                             the American Recovery and Reinvestment Act of 2009.

                         •   Held discussions with program officials to discuss
                             current and ongoing efforts to implement and meet the
                             requirements of the Recovery Act.

                         •   Held discussions with the Offices of the Chief Financial
                             Officer and Management and Administration to discuss
                             their roles in implementing the requirements of the
                             Recovery Act.

                         •   Held discussions with the Department's Office of
                             Procurement and Assistance Management and Office of
                             Program Analysis and Evaluation.


________________________________________________________________
Page 18                            Objective, Scope, and Methodology
Appendix 1 (continued)

                         •   Analyzed the programs' risk assessments and mitigation
                             plans for the Recovery Act projects and identified
                             remaining challenges.

                         •   Held discussions with site office personnel to determine
                             the controls in place to ensure that Recovery Act funds
                             are segregated from non-Recovery Act funds.

                      We conducted this performance audit in accordance with
                      generally accepted Government auditing standards. Those
                      standards require that we plan and perform the audit to obtain
                      sufficient, appropriate evidence to provide a reasonable basis
                      for our findings and conclusions based on our audit objectives.
                      We believe that the evidence obtained provides a reasonable
                      basis for our findings and conclusions based on our audit
                      objective. Because our review was limited, it would not
                      necessarily have disclosed all internal control deficiencies that
                      may have existed at the time of our audit. Also, we considered
                      the establishment of Recovery Act performance measures,
                      which included certain aspects of compliance with the
                      Government Performance and Results Act of 1993 as necessary
                      to accomplish the objective. We did not conduct tests to
                      establish the reliability of computer-processed data because we
                      did not rely on the data to accomplish our audit objective.

                      Management waived the exit conference.




________________________________________________________________
Page 19                            Objective, Scope, and Methodology
Appendix 2

                                  RELATED REPORTS


Office of Inspector General Reports

   •    Report: Department of Energy's Efforts to Meet Accountability and Performance
       Reporting Objectives of the American Recovery and Reinvestment Act (OAS-RA-09-
       04, September 2009). This report found that the Department of Energy's
       (Department) efforts to develop, refine, and apply the control structure needed to
       ensure accurate, timely, and reliable reporting to be both proactive and positive.
       However, the report did identify certain issues relating to the American Recovery and
       Reinvestment Act (Recovery Act) performance management, accounting and
       reporting accuracy, and timeliness that should be addressed and resolved.
       Additionally, a concern was noted that the Department's information systems
       supporting the Recovery Act activities may be unable to handle significant increases
       in workload or provide appropriate mechanisms to ensure that funds are accurately
       tracked and reported.

   •   Special Report: The American Recovery and Reinvestment Act at the Department of
       Energy (OAS-RA-09-01, March 2009). This report provided the Office of Inspector
       General's (OIG) perspective to the Department leadership of the risks to be
       considered as stimulus activities progress. The report is based on a body of work that
       has been used over time by Department officials to improve operations and
       management practices. Based on past experience, the OIG believes that a number of
       activities carried out by the Department need to be closely managed to ensure that
       they satisfy Recovery Act goals. These areas include funding accountability and
       reporting, awarding and monitoring of grants and cooperative agreements, contract
       management, and management of loan programs.

   •   Special Report: The Department of Energy's Acquisition Workforce and its Impact
       on Implementation of the American Recovery and Reinvestment Act of 2009 (IG-RA-
       09-02, March 2009). As a result of the Recovery Act and its significant impact on
       Department operations, the OIG updated a prior review to determine if the size of the
       procurement workforce had changed in the intervening period. Although the
       Department has made progress in expanding its roster of professionals in this field
       over the last two years, the OIG remains concerned that sustaining this progress will
       be exceedingly difficult under current circumstances. The recent increase in the
       number of contract specialists does not reflect the increased demand for procurement
       service as a result of the unprecedented additional funding provided to the
       Department under the Recovery Act. While it is the Department's responsibility to
       determine the precise staff size needed, the current staffing level appears inadequate
       relative to current and future needs as the Department's mission responsibilities
       expand.

   •   Special Report: Management Challenges at the Department of Energy (DOE/IG-
       0808, December 2008). The OIG identified what it considered to be the most
       significant challenges facing the Department in Fiscal Year 2009. In particular, the
________________________________________________________________
Page 20                                           Related Reports
Appendix 2 (continued)

       OIG believed that activities related to contract administration, cyber security, energy
       supply, environmental cleanup, safeguards and security, and stockpile stewardship
       represent the most serious challenges for the Department. The report also included a
       "watch list" of three issues that warrant continued attention by Department managers.
       Specifically, the OIG concluded that the Department's efforts to better manage human
       capital, modernize its infrastructure and improve worker and community safety
       require intense management attention now and in the future.

   •   Report: Selected Energy Efficiency and Renewable Energy Projects (DOE-IG-0689,
       May 2005). The OIG showed that several cooperative agreement projects with the
       Department's Office of Energy Efficiency and Renewable Energy (EERE) did not
       receive proper oversight from management and risk-based systems were not always
       applied. In particular, project officials in some cases were not aware of the status of
       their assigned projects, site visits were not conducted, and reviews of the projects
       were not properly documented. Also, correct procedures in evaluating high risk
       projects and control were not always followed. Due to the lack of oversight and
       involvement on the projects, the Department incurred more risk.

Government Accountability Office Report

   •   American Recovery and Reinvestment Act: GAO's Role in Helping to Ensure
       Accountability and Transparency (GAO-09-453T, March 2009). The Government
       Accountability Office found that there are many implementation challenges to
       ensuring adequate accountability and efficient and effective implementation of the
       Recovery Act. The report specifies that the risk for fraud and abuse grows when
       billions of dollars are going out quickly, eligibility requirements are being established
       or changed, and new programs are being created. This suggests the need for a risk-
       based approach to target for attention specific programs and funding structures based
       on known strengths, vulnerabilities, and weaknesses such as a track record of
       improper payments or contracting problems. In recent years, the accountability
       community has produced a wide variety of best practice and related guides, which are
       available to agencies to assist them in ensuring they have the needed internal controls
       in place. These best practice and related guides cover such areas as fraud prevention,
       contract management, and grants accountability.




________________________________________________________________
Page 21                                           Related Reports
MEMORANDUM FOR RICKEY R. HASS
               DEPUTY INSPECTOR GENERAL FOR AUDIT SERVICE

FROM:                        STEVE ISAKOWIITZ (508 VERSION NO SIGNATURE)
                             CHIEF FINANCIAL OFFICER

SUBJECT:                     Transmittal of Comments to the Office of Inspector General Draft
                             Report – “Selected Department of Energy Efforts to Implement the
                             American Recovery and Reinvestment Act”

Thank you for the opportunity to review and comment on the Office of Inspector General’s
Special Report on “Selected Department of Energy Efforts to Implement the American Recovery
and Reinvestment Act.” The Department has taken a positive and proactive approach to identify
and mitigate risks to the successful implementation of its Recovery Act programs. We concur
with your recommendations for further improving the Department’s Recovery Act
implementation. Many of the actions suggested by the Office of Inspector General have already
been initiated or completed. The attached comments discuss the specific actions relevant to the
individual recommendations.

These comments have been reviewed and approved by the Recovery Act team, the Office of the
Chief Financial Officer, the Department’s Offices of Energy Efficiency and Renewable Energy,
Fossil Energy, Environmental Management, Science, and Electricity Delivery and Energy
Reliability. We are also providing separate technical comments for your consideration in
preparing the Final Report.

Attachment
                                    Response to Inspector General Draft Report
       Selected Department of Energy Program Efforts to Implement the American Recovery and Reinvestment Act
                            (A09HQ003, A09RA001, A09RA002, A09RA005, A09RA007)

As part of its ongoing and planned activities related to awarding and distributing Recovery Act funds, the Department
should:
Recommendation 1
Continue to focus management attention on hiring qualified personnel to meet program needs and consider reallocating staff
where appropriate.

Response
Concur
The Department continues to focus management attention on ensuring the availability of qualified personnel to meet staffing
needs. Several offices within the Department have received direct hire authority for Recovery Act positions and are using
that authority as appropriate to fill critical Recovery Act personnel needs. Additionally, Program Offices have reallocated
personnel and retained contractor support as necessary to meet immediate staffing requirements. Senior Departmental
managers will have an opportunity to review staffing issues for individual Recovery Act projects as part of the Recovery
Program Reviews, which began this past October.

Estimated Completion Date: Completed.

Recommendation 2
Develop controls to improve accountability of financial assistance recipients using ASAP.

Response
Concur
ASAP is a Treasury Department payments system used to distribute financial assistance awards by some DOE program
offices. Obligated funds are made available to recipients through ASAP, but DOE may limit the draw-down of funds from
ASAP. Limiting the disbursement of obligated funds through ASAP is one tool for ensuring recipient accountability, and
individual offices have developed procedures for releasing funds in ASAP based on the specific requirements of their
projects. For example, the Office of Energy Efficiency and Renewable Energy has limited the draw-down of funds obligated
through ASAP for its Weatherization program. Other offices making financial assistance awards will consider limiting the
draw-down of funds in ASAP as necessary to ensure accountability for their individual projects and awards as appropriate for
those projects and as permitted by applicable laws and regulations.

Estimated Completion Date: January 15, 2010

To prepare for the unprecedented level of oversight needed to effectively monitor the vast number Recovery Act projects, the
Department and its program directors, as appropriate, should take steps to:

Recommendation 3
Revise financial assistance guidelines for monitoring awards or create new guidelines that incorporate additional Recovery
Act requirements for monitoring and oversight.

Response
Concur
Program offices making financial assistance awards have taken numerous steps to develop monitoring and oversight plans for
Recovery Act awards. The Office of Energy Efficiency and Renewable Energy has developed a detailed monitoring plan for
its three largest Recovery Act programs. The Office of Science has modified its Work Authorization Statements and the
Terms and Conditions statements on Recovery Act grants to address Recovery Act requirements. The Office of Electricity
Delivery and Energy Reliability has developed a program management handbook with guidance on monitoring and oversight
and is developing additional requirements for collecting cost-benefit information regarding the impact of Smart Grid on
electricity transmission. All program offices are revising monitoring and oversight plans as necessary to meet specific
Recovery Act challenges, and will provide current copies of monitoring and oversight plans to the Recovery Team and the
Office of the CFO by January 15, 2010.




                                                                                                                             1
Other Department-wide efforts contribute to effective monitoring and oversight of Recovery Act programs. The Office of the
CFO and the Recovery Team have initiated Recovery Program Reviews to provide an opportunity for senior managers to
review progress on implementing Recovery Act projects and learn about significant issues affecting the individual programs.
Additionally, the Office of the CFO has issued guidance on monitoring information reported quarterly by Recovery Act
recipients to FederalReporting.gov. More frequent reporting by recipients to DOE would provide an opportunity for
enhanced monitoring and oversight.

Estimated Completion Date: January 15, 2010

Recommendation 4
Perform staffing reviews, as necessary, to determine the level of personnel needed to oversee Recovery Act projects,
prioritize and reallocate staff as appropriate, and continue to provide senior management attention to hiring needs.

Response
Concur
Most program offices have already conducted staffing reviews to identify their personnel requirements and have developed
plans to address identified staffing deficiencies. Program offices will reevaluate their staffing requirements and submit
current or revised staffing plans to the Recovery Team by January 15, 2010. As noted in the response to the first
recommendation, the Recovery Program Reviews provide a forum for senior managers to learn about significant issues
related to staffing.

Estimated Completion Date: January 15, 2010

Recommendation 5
Ensure that new staff hires are adequately trained in monitoring procedures.

Response
Concur
Program offices have developed training strategies for their new hires. These strategies necessarily vary depending on
specific job requirements and the existing knowledge and qualifications of newly-hired staff. Ongoing training efforts
include:
      • Use of the Acquisition Career Management Program for newly-hired acquisition staff.
      • Use of Individual Development Plans to identify training needs for individual staff.
      • Establishment of a training program for personnel assigned to monitor Recovery Act programs by the Office of
           Energy Efficiency and Renewable Energy.
As program offices continue to refine their monitoring and oversight plans they will also develop plans for ensuring that new
or revised monitoring requirements are communicated to the appropriate personnel.

Estimated Completion Date: Completed

Recommendation 6
If programs have not already done so, incorporate performance measures related to the goals of the Recovery Act into the
Performance Evaluation Measurements Plans included in facility operations contracts and ensure that these measures factor
into the performance evaluations of the management and operating contractors.

Response
Concur
Existing Performance Evaluation Measurement Plans vary in their applicability to Recovery Act goals, and the various
program offices have made different determinations on the need to modify these to ensure that Recovery Act goals are
considered in the performance evaluations of their management and operating contracts. Additionally, the role of the
management and operations contractors in Recovery Act implementation various depending on the specific project and
program office.

The Office of Environmental Management has made changes to its contracts to ensure that award fee payments are linked to
Recovery Act performance metrics. The Office of Science has determined that existing Performance Evaluation
Measurement Plans are sufficient to assess contractor performance. The Office of Energy Efficiency and Renewable Energy


                                                                                                                            2
has revised several performance metrics for its one management and operations contract to ensure transparency and
accountability in all related Recovery Act activities.

Estimated Completion Date: Completed

To meet the requirements mandated by the Recovery Act and to address the risks to project execution identified in our report,
the Department should:

Recommendation 7
Ensure that safeguards are sufficient to enhance the likelihood of successful teaming arrangements for cooperative
agreements.

Response
Concur
The Department’s program offices will continue to review teaming arrangements when initiating cooperative agreements.
The Office of Electricity Delivery and Energy Reliability has secured Letters of Commitment for all cooperative agreements,
and, as cited in the IG report, the Office of Fossil Energy has implemented additional controls to enhance reviews of teaming
arrangements. To ensure sufficient safeguards on teaming arrangements the Recovery Team plans to lead a special review of
this issue prior to January 15, 2010.

Estimated Completion Date: January 15, 2010.

Recommendation 8
Ensure that all operational and oversight deficiencies previously identified through audits are considered as programs refine
their risk assessment and mitigation plans and carry out project execution activities.

Response
Concur
The IG report notes that three program offices have not definitively demonstrated that three program offices considered audit
findings, but it does not identify any relevant risks identified through audits that were not considered by the Department’s
risk assessment and mitigation plans. All five program offices evaluated by the IG considered operational and oversight
deficiencies previously identified through audits in developing their risk assessment and mitigation plans. For any future
updates of Recovery Act risk assessment and mitigation plans, program offices will affirmatively state that they have
considered prior audit findings.

Estimated Completion Date: Completed




                                                                                                                                3
                                                          IG Report No. OAS-RA-10-03

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones, (202) 253-2162 or
Felicia.Jones@hq.doe.gov.                     .
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
